HHS/OIG-Audit--"National Review of Peer Review Organizations, (A-07-92-00494)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"National Review of Peer Review Organizations," (A-07-92-00494)
March 30, 1994
Complete
Text of Report is available in PDF format (2.1 MB). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report points out that the Health Care Financing Administration
(HCFA) has developed many effective tools for monitoring the performance of peer
review organizations (PROs). However, further improvements could be made if HCFA
took action to (1) ensure that all PRO recommended financial adjustments are made;
(2) ensure that PROs identify unnecessary impatient admissions and ambulatory surgeries,
medical code validation errors, and quality of care problems; (3) ensure that PRO
reviewers are adequately trained and allocated sufficient time to complete reviews;
(4) consider not allowing PRO review coordinators the authority to override medical
screen failures without a physician's review; and (5) issue regulations giving
PROs the authority to deny payment for substandard quality of care.